WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-1818

Ashlee R. Hull, et al. | Muhammed Samar Nasher-Alneam, et al.|

(Petitioner) Vv. (Respondent)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
oO lam filing this waiver on behalf of all respondents.

© Tonly represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Muhammed Samar Nasher-Alneam
Neurology & Pain Center, PLLC

Please check the appropriate box:

© Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO Tam not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: | be. Ogedit

Date: 7/26/21

  

(Type or print) Name Denver C. Offutt, Jr. / |

© mr. O Ms. O mrs. O Miss

Firm (Offutt Nord, PLLC

Address 949 Third Avenue, Suite 300 ; |
City & State Huntington, wv - Zip 25701 |
Phone 3045292868 Email dooffutt@offuttnord.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Ashley R. Hull
Misty Hull Adkins
John E. Hull, Jr.
